OFFICE OF DEFENSE SERVICES
PUBLIC DEFENDER’S OFFICE
ELBERT N. CARVEL STATE OFFICE BUILDING
820 NORTH FRENCH STREET, THIRD FLOOR
WILMINGTON, DELAWARE 19801
BRENDAN O’NEILL
CHIEF DEFENDER

NICOLE M. WALKER
CHIEF, APPELLATE DIVISION

November 5, 2020

TODD E. CONNER
CHIEF DEPUTY

TELEPHONE
(302) 577-5121

Hon. Scott S. Harris, Clerk
Supreme Court of the United States
1 First Street N.E.
Washington, DC 20543
Re:

Dakai Chavis v. State of Delaware, No. 20-317

Dear Mr. Harris,
Pursuant to this Court’s order dated March 19, 2020, petitioner in the above-captioned case
respectfully requests that the Court delay distribution of the petition for a writ of certiorari for 7
days. The petition is currently scheduled for distribution no earlier than November 17, 2020. If
this Court were to grant the requested 7-day delay, distribution of the petition would occur no
earlier than November 24, 2020. The conference date would then be December 11, 2020.
Petitioner requires the additional time to file his reply due to the logistical difficulties and
dislocations caused by the COVID-19 pandemic, including the need to coordinate among multiple
attorneys collaborating on the case, each working remotely. Counsel’s Administrative Assistant is
also working remotely for a significant portion of the time. Counsel has contacted Maria T. Knoll,
Esquire, Counsel for Respondent, and she has not objection to this request.

Respectfully submitted,
\s\Nicole M. Walker
Nicole M. Walker, Esquire
Counsel of Record
For Petitioner Dakai Chavis
Cc:
Maria T. Knoll, Esquire (Counsel of Record)
Brian Arban, Esquire

Delaware Department of Justice
820 N. French Street, 7th Floor
Wilmington, DE 19801
(302) 577-8500
maria.knoll@delaware.gov

